Kyle D. Hawkins
Solicitor General

(512) 936-1700
kyle.hawkins@oag.texas.gov

February 24, 2020
Via E-File and Federal Express
Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
sharris@supremecourt.gov
Re:

Zadeh v. Robinson, No. 19-676
Motion to Extend Time to File Response to Petition for Writ of
Certiorari

Dear Mr. Harris:
Pursuant to Supreme Court Rule 30.4, Respondents respectfully request a second
extension of the time for filing a response to the petition for writ of certiorari in Zadeh
v. Robinson, No. 19-676.
The response is currently due on March 9, 2020. A 30-day extension is needed because of the press of business from numerous complex matters with deadlines near
the current deadline, which require significant time and attention from the undersigned counsel and other counsel assisting with this matter. Those matters include
an amicus brief in Jacobson v. Florida Secretary of State, No. 19-14552, filed in the
Eleventh Circuit on January 14, 2020; respondent’s brief on the merits in Torres v.
Texas Department of Public Safety, No. 19-0107, filed in the Supreme Court of Texas
on January 21, 2020; en banc oral argument in Thomas v. Reeves, No. 19-60133, in the
Fifth Circuit on January 22, 2020; respondent’s brief on the merits in City of Austin
v. Texas Association of Business, No. 19-0025, filed in the Supreme Court of Texas on
January 22, 2020; respondent’s brief in opposition to the petition for a writ of certiorari in Jones v. Davis, No. 19-6465, filed in this Court on January 28, 2020; oral
argument in Thomas v. Davis, No. 17-70002, in the Fifth Circuit on February 5, 2020;
oral argument in LULAC v. Abbott, No. 19-50214, in the Fifth Circuit on February
P os t Of fic e B ox 12548 , Aust in, Texa s 7 8 7 1 1 - 2 5 4 8 • ( 5 1 2 ) 4 6 3 - 2 1 0 0 • www. t exa satt or n eygen era l. gov

Scott S. Harris
February 24, 2020
Page 2
6, 2020; a motion for leave to file a bill of complaint in Texas v. California, No. 153,
filed in this Court on February 10, 2020; a response opposing the motion to stay in
Audi Aktiengesellschaft v. State of Texas, No. 03-20-00022-CV, filed in the Texas
Third Court of Appeals on February 14, 2020; respondent’s brief in opposition to
the petition for a writ of certiorari in California v. Texas, Nos. 19-840 and 19-841,
filed in this Court on February 14, 2020; oral argument in Wardrip v. Davis, No. 1870016, in the Fifth Circuit on February 19, 2020; oral argument in Wooten v. Roach,
No. 19-40315, in the Fifth Circuit scheduled for March 3, 2020; an amicus brief in In
re the Commitment of Jeffrey Lee Stoddard, No. 19-0561, to be filed in the Texas Supreme Court on March 3, 2020; an amicus brief in Little Sisters of the Poor Saints Peter
and Paul Home v. Pennsylvania, Nos. 19-431 and 19-454, to be filed in this Court on
March 4, 2020; and oral argument in Amawi v. Paxton, No. 19-50384, in the Fifth
Circuit scheduled for March 31, 2020.
No prejudice would arise from the requested extension.
For the foregoing reasons, Respondents respectfully request an extension of the
deadline for filing a response to the petition for writ of certiorari, creating a new
deadline of April 8, 2020, in accordance with Supreme Court Rule 30.1.
Sincerely,
/s/ Kyle D. Hawkins
Kyle D. Hawkins
Solicitor General
Counsel of Record
Office of the Attorney General
P.O. Box 12548 (MC 059)
Austin, Texas 78711-2548
Tel.: (512) 936-1700
Fax: (512) 474-2697
Kyle.Hawkins@oag.texas.gov
Counsel for Respondents
cc:

Paul W. Hughes (Counsel for Petitioners)
P os t Of fic e B ox 12548 , Aust in, Texa s 7 8 7 1 1 - 2 5 4 8 • ( 5 1 2 ) 4 6 3 - 2 1 0 0 • www. t exa satt or n eygen era l. gov

